C@OQCKLE

Legal Briefs E-Mail Address:

contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 19-
HARSHAD SHAH,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 3413 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 9th day of September, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘
State of Nebraska . ,
My Commission Expires Nov 24, 2020 6

Notary Public Affiant 38631

 

 
